               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




    Use of Postal Support Employees in
      Customer Service Operations

                       Audit Report




                                              August 16, 2013

Report Number DR-AR-13-006
                                                                       August 16, 2013

                                               Use of Postal Support Employees in
                                                     Customer Service Operations

                                                       Report Number DR-AR-13-006



BACKGROUND:
In the 2010-2015 American Postal            The low usage rate occurred because of
Workers Union’s National Labor              the lengthy hiring process, inconsistent
Agreement (National Agreement), the         use of PSEs, the absence of goals in
U.S. Postal Service created a new           FY 2012 to use these employees to
category of non-career employees            reduce overtime costs, and contractual
called postal support employees (PSEs)      staffing restrictions.
to increase its workforce flexibility and
reduce labor costs. PSEs have no daily      The Postal Service subsequently
or weekly workhour guarantees;              streamlined the hiring process and set a
however, when scheduled to work, they       FY 2013 nationwide goal to reduce
are guaranteed 2 hours of work or pay.      overtime costs by using PSEs. We
                                            recognized the staffing cap is part of the
The Postal Service employed PSEs in         National Agreement; therefore, we are
May 2011 and provided training at both      not making recommendations on these
the national and area levels. In fiscal     matters. Maximizing the use of lower
year (FY) 2012, salaries and benefits in    cost staff provided an opportunity for the
customer service operations were over       Postal Service to avoid overtime costs
$6.5 billion, more than $575 million (or    of $43.2 million in FY 2012.
9 percent) of which was overtime costs.
As of May 31, 2013, there were 11,443       WHAT THE OIG RECOMMENDED:
PSEs (18.5 percent of career                We recommended the vice president,
employees) and 61,961 career                Delivery and Post Office Operations,
employees on the rolls in customer          continue emphasizing managers
service operations. Our objective was to    maximize usage of PSEs to reduce
evaluate the use of PSEs in customer        overtime costs and meet operational
service operations.                         needs.

WHAT THE OIG FOUND:                         Link to review the entire report
The Postal Service showed incremental
increases in using PSEs in customer
service operations in FY 2012 and
achieved significant labor cost savings
totaling over $233 million. However, it
ended the year with a PSE usage rate of
only 10.5 percent, about half of the
maximum 20 percent usage rate
allowed by the National Agreement.
August 16, 2013


MEMORANDUM FOR:             EDWARD F. PHELAN, JR.
                            VICE PRESIDENT, DELIVERY AND
                            POST OFFICE OPERATIONS




FROM:                       Robert J. Batta
                            Deputy Assistant Inspector General
                             for Missions Operations

SUBJECT:                    Audit Report – Use of Postal Support Employees in
                            Customer Service Operations
                            (Report Number DR-AR-13-006)

This report presents the results of our audit of Use of Postal Support Employees in
Customer Service Operations (Project Number 13XG005DR000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Rita F. Oliver, director, Delivery
and Post Office Operations, or me at 703-248-2100.

Attachment

cc: Douglas A. Tulino
    James J. Boldt
    Margaret M. Pepe
    Jennifer T. Vo
    Corporate Audit and Response Management
Use of Postal Support Employees in                                                                                 DR-AR-13-006
 Customer Service Operations




                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Postal Support Employee Usage .................................................................................... 2

Recommendation ............................................................................................................ 4

Management’s Comments .............................................................................................. 5

Evaluation of Management’s Comments ......................................................................... 5

Appendix A: Additional Information ................................................................................. 7

   Background ................................................................................................................. 7

   Objective, Scope, and Methodology ............................................................................ 8

   Prior Audit Coverage ................................................................................................. 10

Appendix B: Monetary Impact ....................................................................................... 11

Appendix C: Postal Support Employee Usage Rate by District ..................................... 12

Appendix D: Management's Comments ........................................................................ 16
Use of Postal Support Employees in                                                                    DR-AR-13-006
 Customer Service Operations




Introduction

This report presents the results of our audit of Use of Postal Support Employees
(PSEs)1 in Customer Service Operations (Project Number 13XG005DR000). This
self-initiated audit addresses operational risk. Our objective was to evaluate the use of
PSEs to support customer service operations. See Appendix A for additional information
about this audit.

From the early 1970s, the U.S. Postal Service has supplemented its workforce with
non-career employees. In May 2011, the Postal Service created a new category of
non-career employees called PSEs to increase its workforce flexibility and reduce labor
costs. PSEs replaced casual employees.2 PSEs may be used in several positions,
including customer service, mail processing, maintenance, and motor vehicles
operations.3 This audit focuses on customer service PSEs. As of May 31, 2013, there
were 11,443 (18.5 percent of career employees) PSEs and 61,961 career employees
on the rolls in customer service operations.

Conclusion

Postal Service managers achieved significant labor cost savings by using PSEs in fiscal
year (FY) 2012. However, their usage rate at year end in customer service operations
was 10.5 percent,4 well below the staffing cap allowed by the National Agreement.5 The
low usage rate occurred due to the lengthy hiring process, inconsistent use of PSEs
among installations, not establishing FY 2012 goals to reduce overtime costs by
using PSEs, and staffing cap limit restrictions.6 Maximizing the use of lower cost
staff resources, provided the Postal Service the opportunity to avoid overtime costs of
$43.2 million in FY 2012. See Appendix B for monetary impact.




1
  Non-career bargaining unit employees paid at a lower rate than career bargaining unit employees. PSEs may be
hired for a term not to exceed 360 days, but may be rehired following a 5-day break in service.
2
  Casual employees were limited to two 90-day terms of employment in a calendar year.
3
  For the purpose of this review, we considered PSEs performing clerk craft duties in customer service operations or
Function 4 operations. These employees manually distribute mail and perform window service activities at Postal
Service-operated facilities.
4
  Ratio of 7,560 PSEs to 71,796 career employees on the rolls in customer service operations.
5
  Agreement Between the United States Postal Service and American Postal Workers Union (APWU), AFL-CIO
2010-2015, Memorandum of Understanding (MOU), Postal Support Employees.
6
  The National Agreement set forth that each district may employ PSEs up to 20 percent of the total number of
customer service career employees. In addition, in executive and administrative schedule (EAS) level 22 and above
offices, PSEs who work the window will not exceed 10 percent of the career retail clerks. In EAS level 21 and below
offices, PSEs who work the window will not exceed 20 percent of the career retail clerks in that installation whose
duties include working the window.
                                                           1
Use of Postal Support Employees in                                                                DR-AR-13-006
 Customer Service Operations



Postal Support Employee Usage

The Postal Service incrementally increased its use of PSEs through February 2013,
achieving a 19.1 percent national average PSE usage rate.7 They also achieved
significant labor cost savings totaling over $233 million in FY 2012. In October 2011,
there were 2,273 PSE positions (2.9 percent of the career employees in customer
service operations) and by September 2012, the number of these positions had
increased to 7,560 (10.5 percent of career employees). The FY 2012 year-end
percentage was well below the National Agreement’s 20 percent cap limit. See Figure 1
and Appendix C for detailed district and national PSE usage rates.

                                Figure 1. National PSE Usage Rate8




Source: U.S. Postal Service Office of Inspector General (OIG) Analysis of Clerk PSE Opportunity and Compliance
reports.

A number of factors contributed to the low PSE usage rate in FY 2012. According to
management, use of PSEs in customer service operations was a new process;
therefore, a 6-month ramp-up period9 was needed to implement the program. OIG
analysis also found several additional reasons that management did not maximize PSE
use in FY 2012 from our survey10 of the 67 districts.

Ten of the 46 district survey respondents (or 22 percent) cited difficulties in the hiring
process. They stated the PSE hiring process was lengthy and tedious. In addition, these
districts noted that applicants frequently had trouble passing the required screening
tests. In February 2012, the Postal Service streamlined the process for hiring bargaining
employees, including PSEs, from an average of 75 days to 30-40 days, while preserving
7
  The FY 2013 increases were attributable, in part, to a One Time Incentive Retirement MOU, dated September 2012,
between the Postal Service and the APWU. The MOU provides a 90-day period, effective January 31, 2013, to
exceed the National Agreement cap limits by replacing each career APWU employee who accepted the Voluntary
Early Retirement Authority with a PSE to help with the transition.
8
  Data for the quarter ending March 2013, is as of February 22, 2013.
9
  For the purpose of this audit, we considered the ramp-up period to begin in May 2011, when the National
Agreement was ratified for the Postal Service to prepare for hiring, training, and assigning PSEs.
10
   Forty-six districts responded to the OIG survey.

                                                        2
Use of Postal Support Employees in                                                                    DR-AR-13-006
 Customer Service Operations


the integrity of the selection process. Management implemented two process
improvements: a standardized screening process11 to better utilize resources and a
simplified medical assessment process to reduce cycle time. Therefore, we are not
making a recommendation on this matter.

While headquarters management has provided webinar training regarding the flexibility
afforded with the National Agreement at the national and area levels for PSEs, our
analysis of survey results showed that managers in two districts interpreted the National
Agreement as prohibiting installations from sharing PSEs.12 District management
believed that installations sharing PSEs may prohibit them from rehiring those same
PSEs at the end of their 360-day term. In addition, district management believed that
they should not move PSEs among installations to mitigate grievances. Further, when
other PSEs were assigned to a larger central office with plans to share them with
smaller offices, they found that the larger offices were reluctant to do so. Yet, other
districts we surveyed had established practices to facilitate sharing, such as using an
electronic (web-based) scheduling tool. According to guidance provided by Postal
Service Headquarters Human Resources13 and the 2012 Joint Contract Interpretation
Manual, dated July 2012, installation managers may use PSEs at various locations,
presuming the PSE qualifies for the position. In FY 2013, Postal Service Headquarters
initiated processes to monitor and meet bi-weekly with area management on PSE
usage. However, despite these efforts, 39 of the 67 districts’ customer service PSE
usage rates were below the 20 percent cap level as of May 2013.

Also, the Postal Service did not establish specific nationwide goals14 for reducing
overtime costs by using PSEs in FY 2012 in customer service operations. Nevertheless
the Postal Service did achieve over $233 million in straight-time labor cost savings15 by
using PSEs instead of career employees in customer service operations. However,
there was more saving opportunity, as about 9.7 million overtime hours were incurred in
customer service operations (see Table 1). Management established a goal for FY 2013
to reduce overtime costs in customer service operations by 2.3 percent by using PSEs.
Therefore, we are not making a recommendation on this matter.




11
   Background checks and drug tests are to be requested after interviews for tentatively selected candidates, but prior
to extending a conditional job offer.
12
   The OIG's review of the National Agreement found no evidence of such a restriction.
13
   Postal Support Employee Recruitment, Testing, Hiring Guidance Office of Organizational Effectiveness, July 2011.
14
   District and area offices had set goals to reduce overtime established for their operations.
15
   In FY 2012, career employees earned an average of $42.63 while PSEs earned just $17.23 per hour. The labor
rate difference of $25.40 multiplied by 9,212,085 PSE workhours equals $233,962,765 in labor cost savings.

                                                          3
 Use of Postal Support Employees in                                                          DR-AR-13-006
  Customer Service Operations




                  Table 1. FY 2012 Customer Service Operations Regular and
                                    Overtime Workhours16

                                                                                           Percentage
                                      Regular            Overtime              Total        of Total
       Operations                    Workhours           Workhours           Workhours     Workhours
 Mail Distribution                    48,817,955          4,104,621          52,922,576          36%
 Window Service                       43,630,772          2,582,697          46,213,469          32%
 Administrative & Other               40,399,130          2,864,166          43,263,296          30%
 Computerized
 Forwarding Sites                       2,486,393              196,396         2,682,789          2%
 Total                                135,334,250            9,747,880       145,082,130        100%
Source: Enterprise Data Warehouse (EDW), Labor Utilization Report.

 Lastly, our survey results showed 20 of the 46 survey respondents had difficulty using
 PSEs at their retail window counters due to the percentage cap restrictions in the
 National Agreement.17 For example, some district managers stated that the contractual
 restrictions were an obstacle to providing adequate service to customers. Also, smaller
 independent post offices, such as those with three or fewer career employees, would
 not, by the terms of the National Agreement, qualify to use a PSE for window service.
 Further, when the career employee complement is reduced through a transfer or
 retirement, the office may lose the flexibility of using PSEs because the number of
 allowable PSEs will be reduced as well. Because the staffing cap is part of the National
 Agreement, management stated they will not pursue renegotiating of PSE cap
 restrictions. Therefore, we are not making a recommendation on this matter.

 Maximizing the use of lower cost staff resources provided an opportunity for the
 Postal Service to avoid overtime costs of $43.2 million in FY 2012. See Appendix B for
 monetary impact.

 Recommendation

 We recommend the vice president, Delivery and Post Office Operations:

 1. Continue emphasizing that managers maximize usage of postal support employees
    in customer service operations to reduce overtime costs and meet operational
    needs.




 16
      Excludes customer service operations supervisory workhours.
 17
      APWU Postal Support Employee Memoranda, Appendix A, Article 7, B, 4.

                                                         4
Use of Postal Support Employees in                                            DR-AR-13-006
 Customer Service Operations



Management’s Comments

Management agreed with the recommendation but disagreed with the finding and
monetary impact. Management stated they did not consider the finding to be reflective
of the actions taken or the current state of the Postal Service PSE strategy.
Management stated the establishment of PSEs required new position requirements;
labor, legal, and management review and approvals; hiring registers; advertisement;
testing; hiring; and training. Management also stated despite these challenges, they
aggressively engaged in hiring 7,500 PSEs in FY 2012. Management added the Postal
Service is at maximum flexibility with PSE as allowed by the contract and have hired up
to the national hiring cap of 18.2 percent.

In response to our monetary impact, management stated our methodology did not
consider the operational impact of the voluntary early retirement and the measures
necessary for the establishment of PSEs. See Appendix D for management’s
comments, in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendation and
corrective actions should resolve the issues identified in the report. The OIG does not
consider management’s comments responsive to the finding and monetary impact.

Management stated they did not consider the finding to be reflective of the actions taken
or the current state of the Postal Service PSE strategy. However, in the report, we
acknowledged actions taken by management to improve hiring processes and training.
We also recognized the Postal Service increased the PSE usage rate in FY 2013.
Further, our report recognized the Postal Service faces constraints in pursuing flexibility
due to PSE usage cap restrictions outlined in the National Agreement.

Management disagreed with our monetary impact showing that maximizing the use of
PSEs in FY 2012 would have provided an opportunity for the Postal Service to avoid
overtime costs of $42 million. Management stated our methodology did not consider the
operational impact of the voluntary early retirement and the measures necessary for the
establishment of PSEs. However, we considered both of these factors in our cost
savings calculation and discussed them with management as follows.

    Management discussed with OIG their concerns about the impact of the voluntary
     early retirement on our savings calculations. Our savings calculations were for
     FY 2012; the voluntary early retirement did not go into effect until January 31,
     2013, and had no impact on our saving calculations.




                                             5
Use of Postal Support Employees in                                        DR-AR-13-006
 Customer Service Operations




    We recognized Postal Service faced certain operational constraints implementing
     the PSE program. Therefore, we discussed with management what they
     considered as a reasonable time to prepare for hiring, training, and assigning
     PSEs for this new initiative. Management suggested a 6-month period was
     reasonable. Based on management’s input, we excluded 6 months from our cost
     savings calculations.

Based on management’s corrective actions for the significant recommendation, we
agree to close the recommendation with the issuance of this report.




                                          6
Use of Postal Support Employees in                                                                      DR-AR-13-006
 Customer Service Operations



                                  Appendix A: Additional Information

Background

In May 2011, the Postal Service created a new category of employees called PSEs, to
increase its workforce flexibility and reduce labor costs. PSEs are non-career
employees paid at a lower rate than career employees. Although PSEs are initially hired
as non-career employees, the National Agreement provides them a potential path to
career employment. PSEs have no daily or weekly workhour guarantees except that,
when they are scheduled to work, they are guaranteed 2 hours of work or pay. In
addition, part-time career employees working at the straight-time rate are given priority
over PSEs in scheduling. PSEs may be used in several positions, including customer
service, mail processing,18 maintenance, and motor vehicle operations.

In FY 2011, the Postal Service incurred $6.8 billion in salary and benefit costs for
employees in customer service operations, 10 percent of which was overtime costs. In
comparison, in FY 2012, costs for customer service operations employees were
$6.5 billion, 9 percent of which was overtime costs. As shown in Table 2, the actual
overtime costs exceeded budgeted overtime costs by $275 million (68 percent) in
FY 2011 and $285 million (98 percent) in FY 2012.19




18
   We reported in May 2013, that the Postal Service did not use PSEs in mail processing operations to the fullest
extent allowed by the contract (Use of Non-Traditional Full-Time and Postal Support Employee Positions in
Processing Operations, Report Number NO-AR-13-003, dated May 17, 2013).
19
   In prior work, we reported the Postal Service paid $2.86 billion in overtime nationwide compared to $2.44 billion in
FY 2009, representing an increase of 17.2 percent, or $419.5 million (Overtime Usage, Report Number HR-AR-11-
003, March 31, 2011).

                                                           7
  Use of Postal Support Employees in                                                                 DR-AR-13-006
   Customer Service Operations



                                  Table 2. FYs 2011 and 2012 Salary Costs
                                     for Customer Service Employees

                                                      FY 2012
                                                                                                   Percentage
                                                                              Dollar Over             Over
 Workhour                      Actual         Budget                           Budget                Budget
 Straight Time             $5,963,770,337 $5,353,163,461                      $610,606,876            11%
 Overtime                     575,383,584    290,313,181                       285,070,403            98%
 Total                     $6,539,153,921 $5,643,476,642                      $895,677,279            16%
                                             FY 2011
 Straight Time             $6,156,988,714 $5,680,146,265                       $476,842,449           8%
 Overtime                     682,193,140    406,641,720                        275,551,420           68%
 Total                     $6,839,181,854 $6,086,787,985                       $752,393,869           12%
Source: EDW, Payroll Hours Summary, and Postal Service Field Budget.

  Objective, Scope, and Methodology

  The objective of this audit was to evaluate the use of PSEs to support customer service
  operations. To accomplish our objective we:

        Surveyed 67 district management officials about using PSEs at field locations.20

        Interviewed managers at Postal Service Headquarters and seven area operations to
         assess data availability, usage, and training related to PSEs.

        Conducted site visits in the Northeast and Southern areas — which include the
         Capital and Northern Virginia districts — to understand the management and
         oversight of PSE usage.

        Reviewed applicable Postal Service policies and procedures and APWU agreements
         related to PSEs in customer service operations.

        Reviewed and analyzed PSE opportunity, workhour, salary, and compliance data in
         Postal Service systems for FYs 2012 and 2013 year-to-date.

  We collected and relied on computer-generated data from the Postal Service’s
  Operations Complement Management’s PSE Opportunity and Compliance reports and
  webCOINS. We did not test the validity of controls over these systems; however, we did
  verify the accuracy of the data by confirming our analyses results with Postal Service


  20
       The OIG received responses from 46 districts, representing a response rate of 67 percent.

                                                              8
Use of Postal Support Employees in                                         DR-AR-13-006
 Customer Service Operations


managers and other data sources. In addition, we relied on prior OIG reviews of
Postal Service data systems.

We conducted this performance audit from October 2012 through August 2013 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management on June 27, 2013, and included their
comments where appropriate.




                                           9
Use of Postal Support Employees in                                            DR-AR-13-006
 Customer Service Operations



Prior Audit Coverage

                                            Report         Final Report        Monetary
               Report Title                Number              Date             Impact
 Use of Non-Traditional Full-Time       NO-AR-13-003        5/17/2013        $30,656,031
 and Postal Support Employee
 Positions in Processing
 Operations
 Report Results:
 We found that Postal Service managers showed improvement in increasing the use
 of both Non-Traditional Full-Time (NTFT) and PSE positions, but they have not
 hired to the fullest extent allowed by the contract. The use of flexible positions was
 hindered by employees’ reluctance to bid on NTFT positions, difficulties in staffing
 and scheduling NTFT employees, and lack of available positions at some plants.
 Consequently, if the Postal Service had hired PSEs up to contract limits, it could
 have reduced labor and overtime costs in FY 2012 by more than $30.6 million. We
 recommended the Postal Service direct managers to provide additional training to
 improve the utilization and supervision of NTFT positions and periodically evaluate
 PSE staffing to optimize usage of these employees. Management agreed with the
 recommendations, but disagreed with the monetary impact.

                                            Report        Final Report      Monetary
                Report Title                Number             Date          Impact
 Overtime Usage                         HR-AR-11-003        3/31/2011         None
 Report Results:
 We reviewed the Postal Service’s overtime usage in FY 2010 and found that it paid
 $2.86 billion in overtime compared to $2.44 billion in FY 2009, representing an
 increase of 17.2 percent, or $419.5 million. We also determined that, although
 overtime usage increased, overall workhours were reduced by 77.3 million and
 costs by $1.51 billion during this period. According to management, this increase in
 overtime usage was due to a reduction in personnel, mail rerouting, and equipment
 deployment delays and updates. We found that these things contributed to
 increased overtime usage and that the Postal Service did not effectively plan for
 overtime usage as it exceeded its planned overtime hours by 67.8 percent in
 FY 2010. We recommended that the Postal Service develop and implement a plan
 to attain alignment between current workload and workforce levels, by location, to
 ensure effective and efficient use of Postal Service resources; and that the Postal
 Service ensure significant changes impacting operations and resources are
 accounted for in the budget plan. Management agreed with the recommendations.




                                            10
Use of Postal Support Employees in                                                                      DR-AR-13-006
 Customer Service Operations



                                      Appendix B: Monetary Impact

           Recommendation                                   Impact Category                          Amount
                 1                                         Questioned Costs21                      $43,233,842

    We calculated potential savings of $43.2 million22 in FY 2012 customer service
     operations overtime costs.23

    We obtained PSE Clerk Opportunity reports for FY 201224 to calculate how many
     additional PSEs were needed in FY 2012 to reduce customer service operations
     overtime costs by 2.3 percent.25

    To be conservative, we adjusted the number of workhours per pay period to 60 in
     our calculation.

    We multiplied the number of potential PSE hires by the number of workhours
     multiplied by the difference in cost to calculate the potential savings for each of the
     67 districts. In cases where the resulting number of potential hires was zero or a
     negative number (meaning the Postal Service did not need to hire PSE to hit that
     target), we did not calculate cost savings.

The OIG classified these potential savings as questioned costs.




21
   A questioned cost is a cost that is unnecessary, unreasonable, unsupported, or an alleged violation of law,
regulation, contract, and so forth. The cost may be recoverable or unrecoverable and is usually a result of historical
events.
22
   We began our calculations with December 2011, allowing 6 months from the May 2011 ratification date for the
Postal Service to prepare for hiring, training, and assigning PSEs. The potential savings does not include any
potential offsetting expenses, such as cost to hire and train the PSEs.
23
   We began our calculation in December 2011, to allow 6 months for the Postal Service to prepare for hiring and
staffing PSEs in customer service operations.
24
   The 26 pay periods covering FY 2012 began September 24, 2011, and ended September 21, 2012.
25
   To be conservative, we assumed that PSEs would work a 30-hour week and applied the FY 2013 2.3 percent
overtime cost reduction goal to FY 2012.

                                                           11
Use of Postal Support Employees in                                                                                                     DR-AR-13-006
 Customer Service Operations



                                     Appendix C: Postal Support Employee Usage Rate26 by District

                                                                                                                               Increase (Decrease) From
                                             As of FY 2012                           As of February 22, 2013
                                                                                                                              FY 2012 to February 22, 2013
                                     Career           PSEs   PSE                 Career                         PSE             Career      PSEs      PSE
                                                                                                    PSEs
                                    Employees          On   Usage               Employees                      Usage          Employees      On     Usage
                                                                                                   On Roll
    Areas and Districts              On Roll           Roll  Rate                On Roll                        Rate           On Roll      Roll     Rate
    Capital                                956           54  5.6%                       833             145    17.4%                (123)      91    11.8%
    Baltimore                              785           72  9.2%                       681             134    19.7%                (104)      62    10.5%
    Northern Virginia                      705          141 20.0%                       643             157    24.4%                 (62)      16      4.4%
    Richmond                               910          100 11.0%                       817             177    21.7%                 (93)      77    10.7%
    Greensboro                             978           85  8.7%                       897             129    14.4%                 (81)      44      5.7%
    Mid-Carolinas                        1,012          144 14.2%                       921             149    16.2%                 (91)        5     1.9%
    Greater South Carolina                 656          117 17.8%                       588             128    21.8%                 (68)      11      3.9%
    Atlanta                              1,367          169 12.4%                     1,233             229    18.6%                (134)      60      6.2%
    Capital Metro Area                   7,369          882                          6,613            1,248                         (756)     366

    South Jersey                            1,275         54      4.2%                   1,087          149     13.7%                    (188)         95    9.5%
    Western New York                          661         80     12.1%                     561          113     20.1%                    (100)         33    8.0%
    Western Pennsylvania                      967        120     12.4%                     812          193     23.8%                    (155)         73   11.4%
    Central Pennsylvania                    1,043         61      5.8%                     951          116     12.2%                     (92)         55    6.3%
    Philadelphia Metro                      1,078        113     10.5%                     960          215     22.4%                    (118)        102   11.9%
    Appalachian                               688        129     18.8%                     610          175     28.7%                     (78)         46    9.9%
    Tennessee                               1,264        159     12.6%                   1,107          226     20.4%                    (157)         67    7.8%
    Kentuckiana                               916        128     14.0%                     821          204     24.8%                     (95)         76   10.9%
    Northern Ohio                           1,223        135     11.0%                   1,064          224     21.1%                    (159)         89   10.0%
    Cincinnati                              1,262        159     12.6%                   1,093          172     15.7%                    (169)         13    3.1%
    Eastern Area                           10,377      1,138                             9,066        1,787                            (1,311)        649
.




26
     Per the MOU, the Postal Service can exceed the 20 percent maximum usage cap for a period of 90 days, starting February 1, 2013.


                                                                                12
Use of Postal Support Employees in                                                                   DR-AR-13-006
 Customer Service Operations



                                            PSE Usage Rate by District (Continued)

                                                                                                 Increase (Decrease) From
                                     As of FY 2012                 As of February 22, 2013
                                                                                                FY 2012 to February 22, 2013
                               Career       PSEs    PSE        Career                    PSE      Career      PSEs      PSE
                                                                               PSEs
                              Employees      On    Usage      Employees                 Usage   Employees      On     Usage
                                                                              On Roll
 Areas and Districts           On Roll       Roll   Rate       On Roll                   Rate    On Roll      Roll     Rate
 Greater Indiana                    1,122      187 16.7%            1,015         291   28.7%          (107)    104    12.0%
 Detroit                            1,368      206 15.1%            1,176         363   30.9%          (192)    157    15.8%
 Greater Michigan                     892       97 10.9%              804         212   26.4%           (88)    115    15.5%
 Lakeland                           1,579      217 13.7%            1,385         239   17.3%          (194)     22      3.5%
 Central Illinois                   1,300      171 13.2%            1,129         288   25.5%          (171)    117    12.4%
 Chicago                              601       67 11.1%              431         365   84.7%          (170)    298    73.5%
 Gateway                            1,328      208 15.7%            1,151         240   20.9%          (177)     32      5.2%
 Great Lakes Area                   8,190    1,153                  7,091       1,998                (1,099)    845
 Caribbean                            767       93 12.1%              697          93   13.3%           (70)       0     1.2%
 Greater Boston                     2,004      180  9.0%            1,771         282   15.9%          (233)    102      6.9%
 Northern New England               1,163      138 11.9%            1,067         229   21.5%           (96)     91      9.6%
 Connecticut Valley                 1,796       61  3.4%            1,545         161   10.4%          (251)    100      7.0%
 Northern New Jersey                1,778      193 10.9%            1,534         228   14.9%          (244)     35      4.0%
 New York                           1,294       92  7.1%            1,097         179   16.3%          (197)     87      9.2%
 Westchester                          884       96 10.9%              808          99   12.3%           (76)       3     1.4%
 Triboro                            1,084      118 10.9%              971         182   18.7%          (113)     64      7.9%
 Long Island                          997      111 11.1%              880         139   15.8%          (117)     28      4.7%
 Albany                               834       50  6.0%              746          65    8.7%           (88)     15      2.7%
 Northeast Area                    12,601    1,132                 11,116       1,657                (1,485)    525




                                                              13
Use of Postal Support Employees in                                                                     DR-AR-13-006
 Customer Service Operations


                                              PSE Usage Rate by District (Continued)

                                                                                                   Increase (Decrease) From
                                      As of FY 2012                  As of February 22, 2013
                                                                                                  FY 2012 to February 22, 2013
                               Career         PSEs   PSE         Career                    PSE      Career      PSEs      PSE
                                                                                 PSEs
                              Employees        On   Usage       Employees                 Usage   Employees      On     Usage
                                                                                On Roll
 Areas and Districts           On Roll         Roll  Rate        On Roll                   Rate    On Roll      Roll     Rate
 Los Angeles                         976         72  7.4%               811         129   15.9%         (165)      57      8.5%
 Sierra Coastal                      977         92  9.4%               876         160   18.3%         (101)      68      8.8%
 San Diego                         1,210        158 13.1%             1,110         155   14.0%         (100)      (3)     0.9%
 Santa Ana                         1,512        182 12.0%             1,371         303   22.1%         (141)     121    10.1%
 San Francisco                       871         62  7.1%               783          92   11.7%          (88)      30      4.6%
 Bay-Valley                        1,123         92  8.2%               993         147   14.8%         (130)      55      6.6%
 Sacramento                        1,209        113  9.3%             1,043         231   22.1%         (166)     118    12.8%
 Honolulu                            499         58 11.6%               456          62   13.6%          (43)        4     2.0%
 Pacific Area                      8,377        829                   7,443       1,279                 (934)     450

 North Florida                        1,456      184   12.6%            1,279       250   19.5%          (177)      66    6.9%
 South Florida                        1,282       85    6.6%            1,119       194   17.3%          (163)     109   10.7%
 Suncoast                             1,866      147    7.9%            1,576       414   26.3%          (290)     267   18.4%
 Alabama                              1,009       95    9.4%              914       172   18.8%           (95)      77    9.4%
 Mississippi                            649       96   14.8%              588       153   26.0%           (61)      57   11.2%
 Louisiana                              991       72    7.3%              885       210   23.7%          (106)     138   16.5%
 Arkansas                               712       79   11.1%              645        89   13.8%           (67)      10    2.7%
 Oklahoma                               696       87   12.5%              614       162   26.4%           (82)      75   13.9%
 Dallas                               1,168       33    2.8%            1,083       110   10.2%           (85)      77    7.3%
 Fort Worth                             793       36    4.5%              720        74   10.3%           (73)      38    5.7%
 Houston                              1,187      102    8.6%              986       230   23.3%          (201)     128   14.7%
 Rio Grande                           1,280       92    7.2%            1,120       221   19.7%          (160)     129   12.5%
 Southern Area                       13,089    1,108                   11,529     2,279                (1,560)   1,171




                                                                14
Use of Postal Support Employees in                                                                             DR-AR-13-006
 Customer Service Operations



                                                  PSE Usage Rate by District (Continued)

                                                                                                           Increase (Decrease) From
                                         As of FY 2012                       As of February 22, 2013
                                                                                                          FY 2012 to February 22, 2013
                                 Career            PSEs    PSE           Career                    PSE      Career      PSEs      PSE
                                                                                         PSEs
                                Employees           On    Usage         Employees                 Usage   Employees      On     Usage
                                                                                        On Roll
 Areas and Districts             On Roll            Roll   Rate          On Roll                   Rate    On Roll      Roll     Rate
 Hawkeye                                687            55  8.0%                 595          84   14.1%           (92)      29     6.1%
 Northland                            1,328            77  5.8%               1,175         169   14.4%          (153)      92     8.6%
 Dakotas                                719           133 18.5%                 653         127   19.4%           (66)     (6)     1.0%
 Mid-America                            841            95 11.3%                 773         142   18.4%           (68)      47     7.1%
 Central Plains                         907           132 14.6%                 768         121   15.8%          (139)    (11)     1.2%
 Colorado/Wyoming                     1,570           224 14.3%               1,402         290   20.7%          (168)      66     6.4%
 Salt Lake City                         750            86 11.5%                 674         105   15.6%           (76)      19     4.1%
 Arizona                              1,751           114  6.5%               1,553         243   15.6%          (198)    129      9.1%
 Nevada-Sierra                          551            61 11.1%                 490          88   18.0%           (61)      27     6.9%
 Portland                               937           155 16.5%                 826         200   24.2%          (111)      45     7.7%
 Seattle                              1,462           146 10.0%               1,305         236   18.1%          (157)      90     8.1%
 Alaska                                 290            40 13.8%                 261          57   21.8%           (29)      17     8.0%
 Western Area                        11,793         1,318                    10,475       1,862                (1,318)    544
 National Total                      71,796         7,560 10.5%              63,333      12,110   19.1%        (8,463)  4,550      8.6%
Source: OIG analysis of Clerk PSE Opportunity and Compliance reports.




                                                                        15
Use of Postal Support Employees in                             DR-AR-13-006
 Customer Service Operations



                           Appendix D: Management's Comments




                                          16
Use of Postal Support Employees in        DR-AR-13-006
 Customer Service Operations




                                     17
Use of Postal Support Employees in        DR-AR-13-006
 Customer Service Operations




                                     18
